              Office of
              INSPECTOR GENERAL
              U.S. Department of the Interior

      INSPECTION REPORT




         Museum Collections:
   Preservation and Protection Issues
   with Collections Maintained by the
      Bureau of Land Management

Report No. C-IS-BLM-0005-2010                   January 2010
                      United States Department of the Interior
                                     OFFICE OF INSPECTOR GENERAL
                                     CENTRAL REGION - DENVER FIELD OFFICE
                                             134 Union Blvd., Suite 510
                                                Denver CO 80228

                                                                                 January 29, 2010


To:        Bob Abbey
           Director, Bureau of Land Management

From:      Loralee Bennett      'c3-~                      O~
           Deputy Regional Audit Manager

Subject:   Inspection Report - Museum Collections: Preservation and Protection Issues with
           Collections Maintained by the Bureau of Land Management (C-IS-BLM-0005-2010)

        The long-term preservation and future availability of artwork, artifacts, and other items
maintained in museum collections operated by the Bureau of Land Management (BLM) requires
BLM to minimize those factors that tend to shorten an object's life. As a result, we evaluated
BLM museum collections to determine whether BLM was adequately preserving and protecting
its artwork, artifacts, and other museum objects.


             Background
II                                           11

       Bureaus within the Department ofthe Interior manage museum collections that are
estimated to include over 146 million pieces of artwork, artifacts, and other museum objects.
Museum property is acquired to be preserved, studied, or interpreted for public benefit and can
include objects representing archeology, art, history, botany, zoology, paleontology, or geology.

       Because museum property is intended for long-term preservation, its management
requirements are necessarily different from the requirements of property that can be easily
replaced. Therefore, the Department's Museum Property Handbook defines seven preservation
categories for use in protecting museum property: storage, environment, security, fire protection,
housekeeping, planning, and staffing.

        On December 16,2009 we issued a report titled "Department oftlle Interior Museum
Collections" (Report No. C-IN-MOA-0010-2008). The review found that the Department was a
poor steward of these museum collections and could take additional steps to improve
preservation and protection of museum collections. To assess the adequacy of the Department's
preservation practices, we developed a 44 question checklist assessing the seven preservation
areas identified in the Department's guidance. Using this checklist, we visited one BLM site and

                                                  • 1• •
completed the checklist based on both our observations and interviews with museum personnel.
We also received self-reported checklists from an additional two BLM sites. This report provides
you with specific results for these BLM sites.


          Results of Inspection

        Overall, we found the preservation practices were generally adequate at BLM sites
included in this review. See Appendix. However, despite the generally adequate preservation
practices, even one deficiency could                                          Percentage of Checklist
                                                 Site
jeopardize museum objects and result in                                       Items with Deficiencies
irreparable harm, irreversible damage, or        Oregon   Trail                         9%
loss of the item. For example, while the         Anasazi Heritage                       2%
National Historic Oregon Trail Interpretive      Billings Curation                      9%
Center in Baker City, OR used a
hygrothermograph1, no data analysis had been conducted on the readings for two years because
                                   of a lack in staffing. However, while recording temperature
                                   and humidity is important, analyzing the reading for
                                   variations is crucial. Analysis could help identify problems in
                                   the environment, such as unusual climatic conditions, a leaky
                                   roof, the need for recalibration of equipment, or unusual
                                   visitor patterns. At this site, we observed historic items such
                                   as leather boots and hats that
                                   would be susceptible to
                                   deterioration if humidity levels
                                   were not appropriately
                                   controlled.


            Recommendations

      We recommend that the Director, Bureau of Land
Management, ensure that a plan is developed and implemented to:

           Recommendation 1. Correct and/or mitigate, to the
           greatest extent possible, deficiencies identified at the three sites identified in this report.

           Recommendation 2. Inspect all remaining BLM sites that house museum collections
           and correct and/or mitigate, to the greatest extent possible, all identified deficiencies.




1
    Hygrothermographs record relative humidity and temperature levels continuously over a period of time.


                                                           2
        We would appreciate being kept apprised of the actions planned, or taken, on our
recommendations as we will track the status of their implementation. We ask that you inform us
of the planned course of action of the recommendations within 30 days.

       If you have any comments or questions regarding this advisory, please call me at
(303) 236-9243.




                                               3
                                                                                            Appendix


                                              Observed              Self-Reported




                                                                                       Billings Curation
                                                                    Anasazi Heritage
                                                National Historic
                                                Oregon Trail IC




                                                                                             Facility
                                                                        Center
         No Deficiencies Noted

     X   Deficiencies Noted

     % Percentage of Deficiencies Noted

STORAGE                                          0%                  8%                 0%
1. Safe from flooding.
2. Appropriately insulated.
3. Appropriate space.
4. Sufficient space.
5. Adequate storage cabinets.                                           X
6. Cabinets not over-stacked.
7. Open shelving safe.
8. Stacked items protected.
9. Earthquake safe.
10. No overcrowding.
11. Secure exhibit cases.
12. Appropriate exhibit cases.
13. Properly framed artwork.
ENVIRONMENT                                     44%                  0%                11%
14. Temperature & humidity monitored.               X
15. Observations recorded.                          X
16. Observations permanently saved.                 X
17. Observations analyzed.                          X
18. Hygrothermographs maintained.
19. Outside light appropriately controlled.
20. Artwork away from vents.
21. Pest control devices used.
22. Type of pests analyzed.                                                                X
SECURITY                                         0%                  0%                13%
23. Appropriate staff have keys.
24. Keys are controlled.
25. Visitors escorted.
26. Visitors sign in.
27. Closing procedures documented.                                                         X
28. Alarm systems maintained.
29. Sensitive items stored separately.
30. Irreplaceable items guarded.


                                          4
                                                                                           Appendix
                                             Observed              Self-Reported




                                                                                      Billings Curation
                                                                   Anasazi Heritage
                                               National Historic
                                               Oregon Trail IC




                                                                                            Facility
                                                                       Center
        No Deficiencies Noted

    X   Deficiencies Noted

    % Percentage of Deficiencies Noted

FIRE PROTECTION                                 0%                  0%                 0%
31. Fire detection and suppression.
32. Fire extinguishers.
33. Staff trained on fire extinguishers.
34. Fire suppression systems clear.
35. No flammable liquids.
HOUSEKEEPING                                    0%                  0%                50%
36. Housekeeping performed.                                                               X
37. Written rules on housekeeping.                                                        X
38. Housekeepers trained.
39. Smoking & eating prohibited.
PLANNING                                        0%                  0%                 0%
40. Written plan.
41. Assessment of property.
42. Plan to evacuate property.
STAFFING                                        0%                  0%                 0%
43. Staff assigned responsibilities.
44. Staff have been trained.
ADDITIONAL DOCUMENTS
1. Checklist Report                                X                                      X
2. Basic Security Protection Report                                                       X
3. Fire Protection Plan
4. Integrated Pest Management Plan
5. Environmental Control Plan                                                             X
6. Annual Emergency Management Plan
7. Current Collection Storage Plan                                                        X
8. Written Handling Procedures                                                            X




                                         5
Report Fraud, Waste, Abuse
   And Mismanagement
           Fraud, waste, and abuse in
       government concerns everyone:
       Office of Inspector General staff,
      Departmental employees, and the
      general public. We actively solicit
       allegations of any inefficient and
     wasteful practices, fraud, and abuse
   related to Departmental or Insular area
  programs and operations. You can report
       allegations to us in several ways.




   By Mail:    U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428 MIB
               1849 C Street, NW
               Washington, D.C. 20240

   By Phone:   24-Hour Toll Free 800-424-5081
               Washington Metro 703-487-5435

   By Fax:     703-487-5402

   By          www.doioig.gov/hotline
   Internet:
